No. 19IN THE

bupreute Court of the tiniteb Otateo
MICAH JESSOP; BRITTAN ASHJIAN,
Petitioners,
v.
CITY OF FRESNO; ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,737 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 14, 2020.

bto
Colin Casey Irogan
Wilson-Epes Printing Co., Inc.

